HHS/OIG-Audit--"Implementation and Enforcement of the Examination and
Treatment for Emergency Medical Conditions and Women in Labor Act by the Health Care
Financing Administration, (A-06-93-00087)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Implementation and Enforcement of the Examination and Treatment for Emergency
Medical Conditions and Women in Labor Act by the Health Care Financing Administration," (A-06-93-00087)
April 6, 1995
Complete
Text of Report is available in PDF format (1.76 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report discusses the effectiveness of the Health Care Financing
Administration's (HCFA) investigation and resolution of so-called patient dumping
complaints. The report points out that HCFA's regional offices were not always
consistent in; (1) conducting timely investigations of patient dumping complaints,
(2) sending acknowledgments to complainants, (3) ensuring that provisions of the
Act were addressed in substantiating violations, and (4) ensuring that violations
were referred to the Office of Inspector General (OIG) for consideration of civil
monetary penalties. We recommended that HCFA amend its guidelines to the regional
offices, conduct training on the requirements concerning patient dumping, ensure
that all regional offices are following established procedures, and improve its
process for referring cases to the OIG. The HCFA concurred with our findings and
recommendations and has taken corrective action.